No. 20-659

 

In THE
Supreme Court of the United States

LARRY THOMPSON,

Petitioner,
v.

POLICE OFFICER PAGIEL CLARK, SHIELD #28472,
Respondent.

On Writ of Certiorari to the United States
Court of Appeals for the Second Circuit

BRIEF OF CHICAGO, NATIONAL ASSOCIATION OF
COUNTIES, NATIONAL LEAGUE OF CITIES, U.S.
CONFERENCE OF MAYORS, INTERNATIONAL
CITY/COUNTY MANAGAGEMENT ASSOCIATION, AND
INTERNATIONAL MUNICIPAL LAWYERS
ASSOCIATION
AS AMICI CURIAE SUPPORTING RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1th), I certify that the document contains
8,996 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 23, 2021.

 

Colin Casey Flogan
Wilson-Epes Printing Co., Inc.
